CERTIFICATE OF SERVICE
I, J. Bart DeLone, Chief Deputy Attorney General, do hereby certify that I have
this day served the foregoing Response in Opposition to Application to Stay the
Enforcement of Governor Wolf’s Executive Order Dated March 19, 2020, described
below as follows:
No. 19A1032
IN THE SUPREME COURT OF THE UNITED STATES,
Friends of Danny DeVito, et al., Applicants v. Tom Wolf,
Governor, et al., Respondents – Response in Opposition to
Application to Stay the Enforcement of Governor Wolf’s
Executive Order Dated March 19, 2020
Per the Court’s April 15, 2020 Order, by electronic filing and First-Class Mail, postage
prepaid to:
1 COPY TO:

Scott S. Harris, Clerk
UNITED STATES SUPREME COURT
1 First Street, N.E.
Washington, DC 20543-0001

Per the Court’s April 15, 2020 Order, by electronic filing and email to:
1 COPY TO: Marc A. Scaringi, Esquire
Scaringi & Scaringi, PC
marc@scaringilaw.com
Counsel for Applicants

s. J. Bart DeLone
J. Bart DeLone
Chief Deputy Attorney General
OFFICE OF ATTORNEY GENERAL
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 712-3818
jdelone@attorneygeneral.gov
Dated: May 4, 2020

